No. 20-1312
IN THE SUPREME COURT OF THE UNITED STATES
_________________
XAVIER BECERRA, SECRETARY
OF HEALTH AND HUMAN SERVICES, PETITIONER
v.
EMPIRE HEALTH FOUNDATION,
FOR VALLEY HOSPITAL MEDICAL CENTER
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE PETITIONER, via email and first-class mail, postage prepaid, this 1st
day of September, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 12,995
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
September 1, 2021.

Brian H. Fletcher
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
September 1, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-1312
BECERRA, XAVIER, SECRETARY OF HEALTH AND
HUMAN SERVICES
EMPIRE HEALTH FOUNDATION, FOR VALLEY
HOSPITAL MEDICAL CENTER

DANIEL J. HETTICH
KING & SPALDING LLP
1700 PENNSYLVANIA AVENUE, NW
SUITE 200
WASHINGTON, DC 20006
202-626-9128
DHETTICH@KSLAW.COM
MICHAEL PEPSON
AMERICANS FOR PROSPERITY FOUNDATION
1310 N. COURTHOUSE ROAD
SUITE 700
ARLINGTON, VA 22201
571-329-4529
MPEPSON@AFPHQ.ORG
TERESA A. SHERMAN
PAUKERT & TROPPMAN, PLLC
522 W. RIVERSIDE AVE.
SUITE 560
SPOKANE , WA 99201
509-232-7760
TSHERMAN@PT-LAW.COM
ANNE MARGARET VOIGTS
KING & SPALDING LLP
633 WEST FIFTH STREET
SUITE 1600
LOS ANGELES, CA 90071
213-443-4355
AVOIGTS@KSLAW.COM

